D
I                                                 EMPLOYMENT AND TRAINING
S
C                                                 ADMINISTRATION
U
S
S
I
O
N   Office of Inspector General—Office of Audit
D
R
A
F
T




                                                  MANAGEMENT & TRAINING CORPORATION DID
                                                  NOT ENSURE BEST VALUE IN AWARDING
                                                  SUB-CONTRACTS AT THE PAUL SIMON JOB
                                                  CORPS CENTER




                                                                     Date Issued:     March 30, 2012
                                                                  Report Number:    26-12-002-03-370
U.S. Department of Labor                                   March 2012
Office of Inspector General
Office of Audit
                                                           MANAGEMENT & TRAINING CORPORATION
                                                           DID NOT ENSURE BEST VALUE IN AWARDING
                                                           SUB-CONTRACTS AT THE PAUL SIMON JOB
BRIEFLY…                                                   CORPS CENTER
Highlights of Report Number 26-12-002-03-370, issued
to the Assistant Secretary for Employment and Training.    WHAT OIG FOUND
                                                           MTC Paul Simon improperly awarded 8 of the 10 sub–
WHY READ THE REPORT                                        contracts managed during our review period. For the
Management and Training Corporation (MTC) operates         eight sub–contracts, we questioned $1,101,414
the Paul Simon Job Corps Center (MTC Paul Simon).          because MTC Paul Simon did not comply with its own
This report discusses how MTC Paul Simon did not           SOPs. Specifically, cost or price analysis and
ensure best value was received by the government           responsibility checks of the sub-contractors’ ability to
when awarding sub–contracts and purchase orders.           satisfactorily perform the sub-contracts were not
While MTC is not required to specifically comply with      performed.
the Federal Acquisition Regulation (FAR), DOL policy
requires MTC’s procedures to be consistent with FAR        Issues were also found in the award of purchase orders
principles for fair and open competition. We questioned    to vendors for 23 of the 50 expenditures more than
costs totaling $1.3 million due to MTC Paul Simon’s        $3,000 that we statistically selected. For 16 of these
non-compliance with its own procurement Standard           expenditures, MTC Paul Simon did not adequately
Operating Procedures (SOP). The report also discusses      justify sole source procurements as required by its own
process improvements MTC, ETA, and Job Corps need          SOPs; and for 7 expenditures the center improperly
to make to ensure MTC Paul Simon future sub-contract       claimed costs for a grant awarded by the city of
and purchase order awards comply with its own              Chicago. We questioned $224,198 for the 23
procurement guidance.                                      expenditures.

MTC’s current contract with Job Corps to operate the       These conditions occurred because MTC Paul Simon
center covers the five-year period from August 1, 2008,    had not established a control environment, including
to July, 31 2013. The contract value totals                training and oversight, to ensure consistent compliance
approximately $49 million, including $19 million for the   with its SOPs. In addition, neither ETA contracting
base 2-year period and $30 million over three option       personnel nor Job Corps regional staff adequately
years.                                                     monitored MTC Paul Simon procurement activities.

WHY OIG CONDUCTED THE AUDIT                                WHAT OIG RECOMMENDED
Our audit objective was to answer the following            We recommended the Assistant Secretary for
question:                                                  Employment and Training recover questioned costs as
                                                           appropriate and direct MTC and MTC Paul Simon to
  Did MTC Paul Simon ensure best value when                strengthen procurement procedures, training, and
  awarding sub-contracts and claiming costs?               oversight to ensure compliance with its own
                                                           procurement criteria. We also recommended that ETA
Our audit work was conducted at the MTC Paul Simon         contract personnel and Job Corps regional staff review
Job Corps Center in Chicago, IL, and at the Chicago        all future MTC Paul Simon sub-contracts for
Regional Office of Job Corps in Chicago, IL.               procurement compliance and approval prior to award.

READ THE FULL REPORT                                       ETA generally agreed with our findings, fully or partially
To view the report, including the scope, methodology,      accepted our recommendations, and will require MTC
and full ETA and MTC responses, go to:                     Paul Simon to request ETA approval before any future
                                                           sub-contracting awards. MTC disagreed with our draft
http://www.oig.dol.gov/public/reports/oa/2012/26–12–       report, including our use of the FAR as criteria for sub-
002–03–370.pdf.                                            contracting awards made by MTC. Based on the
                                                           responses of MTC and ETA, we adjusted the report to
                                                           reflect that MTC must comply with its own procurement
                                                           SOPs, which must be consistent with the FAR
                                                           principles to ensure best value.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
                                    Report No. 26-12-002-03-370
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 3

Objective — Did MTC Paul Simon ensure best value when awarding sub-contracts 

and claiming costs?...................................................................................................... 5

         MTC Paul Simon improperly awarded sub-contracts resulting in more than 

                $1.3 million in questioned costs. ............................................................ 5


         Finding — MTC Paul Simon did not always award sub-contracts and 

                 purchase orders or claim costs as required by its own 

                 procurement guidance............................................................................ 5

Recommendations ...................................................................................................... 12

Exhibits
         Exhibit 1 MTC Paul Simon Sub-contracts and SOP Non-compliance ................ 17

         Exhibit 2 FAR Criteria on Sub-contracting Used by ETA Contracting 

                   Officers................................................................................................. 19

Appendices
         Appendix A Background ..................................................................................... 23

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 25

         Appendix C Acronyms ........................................................................................ 31

         Appendix D ETA Response to Draft Report ....................................................... 33

         Appendix E MTC Response to Draft Report ....................................................... 37

         Appendix F Acknowledgements ......................................................................... 53





                                                                                       MTC Paul Simon Sub-Contracting
                                                                                          Report No. 26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
                                    Report No. 26-12-002-03-370
                                                         U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210




March 30, 2012

                                Assistant Inspector General’s Report


Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 125
centers throughout the country. The Job Corps program is administered by the
Department of Labor’s (DOL) Employment and Training Administration (ETA) per
authorization provided by the Workforce Investment Act (WIA). Within ETA, the program
is managed by the Office of Job Corps, which consists of a national office and 6
regional offices. The Job Corps program’s budget for Fiscal Year (FY) 2010 totaled
about $1.7 billion.

Management and Training Corporation (MTC) operates the Paul Simon Job Corps
Center (MTC Paul Simon). MTC’s contract with Job Corps to operate the center covers
the 5-year period from August 1, 2008, to July, 31 2013. The contract value totals
approximately $49 million, including $19 million for the base 2-year period and
$30 million for 3 option years.

The FAR Subpart 44.302 requires ETA to determine the need for a Contractor’s Purchasing
System Review (CPSR) based on, but not limited to, the past performance of the contractor
and dollar value of sub-contracts (generally $25 million). FAR Subpart 44.301 states the
objective of a CPSR is to evaluate the efficiency and effectiveness with which the
contractor spends government funds and complies with government policy when
sub-contracting. The review provides the Contracting Officer with a basis for granting,
withholding, or withdrawing approval of the contractor’s purchasing system. 1 Furthermore,
FAR Subpart 44.303 states, “The 13 considerations listed in FAR Subpart 44.202-2 for
consent evaluation of particular sub-contracts also shall be used to evaluate the
contractor’s purchasing system, including the contractor’s policies, procedures, and
performance under that system. Special attention shall be given to:

    (a) The results of market research accomplished;
    (b) The degree of price competition obtained;

 ETA reviews each center operator’s procurement systems every three years. If the procurement system is
1

“approved,” ETA contracting officials reduce their oversight of the center operator’s procurement activities.

                                                                                     MTC Paul Simon Sub-Contracting
1                                                                                       Report No.26-12-002-03-370
                                                       U.S. Department of Labor – Office of Inspector General


       (c) Pricing policies and techniques, including methods of obtaining certified cost or
           pricing data…;
       (d) Methods of evaluating sub-contractor responsibility, including the contractor’s use of
           the Excluded Parties List System…;
       (g) Planning, award, and post-award management of major sub-contract programs…;
           and
       (j) Appropriateness of types of contracts used.”

See Exhibit 2 for selected details on the FAR criteria ETA Contracting Officers use to
evaluate contractor purchasing systems.

DOL policy for conducting CPSRs (Section 4.9) states that it is in the government’s interest
to perform CPSRs when a contractor’s total combined business with Job Corps exceeds
$25 million. The policy further clarifies the center operators’ responsibility to establish
procurement policies and procedures that are consistent with the FAR. The DOL policy
states that under the terms of center operator contracts, Contracting Officers are
responsible for ensuring that contractors procure goods and services on behalf of the Job
Corps program in conformance with the contract provisions and principles detailed in the
FAR. Contracting officers can either review and consent to all sub-contracts for the
contract, or may approve the contractor’s purchasing system. The policy also states that
the FAR allows for approval of purchasing systems that demonstrate compliance with FAR
principles after a rigorous review of all purchasing manuals and procedures. Additionally,
MTC’s corporate Standard Operating Procedures (SOP) require that its center processes
be consistent with government regulations. 2

MTC had an approved CPSR. As such, MTC Paul Simon was required to submit only its
health and medical sub-contracts to ETA for consent prior to contract award. Additionally,
MTC Paul Simon’s SOPs were approved by ETA when MTC was awarded the contract to
operate MTC Paul Simon. If MTC Paul Simon sub-contracting execution is not consistent
with its SOPs, then ETA is authorized by the FAR to withdraw MTC CPSR approval.

Based on the responses of MTC and ETA to our draft report (Appendices D and E) and
subsequent communication, we revised our criteria to evaluate MTC Paul Simon’s
compliance with its own procurement SOPs and the SOPs consistency with the FAR
requirement for ensuring best value to the government. As such, our audit objective was
to answer the following question:

       Did MTC Paul Simon ensure best value when awarding sub-contracts and claiming
       costs?

To address our audit objective, we reviewed criteria that were applicable to MTC Paul
Simon’s procurement activities as of March 2011, including specific sections of the FAR,
Job Corps’ Policy and Requirements Handbook (PRH), contract provisions, and the
center’s SOP. We analyzed MTC and Job Corps Chicago Regional Office assessments of
MTC Paul Simon operations and performed process walkthroughs with key MTC Paul
2
    MTC SOP #13.01, General Purchasing Policy, dated January 1, 2011, Paragraph B.1.

                                                                             MTC Paul Simon Sub-Contracting
2                                                                               Report No.26-12-002-03-370
                                                      U.S. Department of Labor – Office of Inspector General


Simon and MTC officials, as well as ETA and Job Corps regional office staff. We reviewed
MTC Paul Simon’s SOPs to determine whether they ensured open competition and best
value to the government and tested each of the sub-contracts and expenditures 3 for
compliance with the SOPs. Our testing included a review of the MTC Paul Simon’s
sub-contracts to determine if the center obtained adequate price competition or properly
justified its absence; considered past performance, technical requirements, and ability to
comply with proposed performance and delivery schedules; and performed adequate cost
or price comparisons. We also determined whether documentation was maintained to
support claimed costs.

The audit covered sub-contracts managed and expenditures incurred by MTC Paul
Simon from April 1, 2010, to March 31, 2011. We examined all 10 sub-contracts
awarded by MTC Paul Simon during this period, totaling $1,905,111. We also reviewed
a statistical sample of 50 expenditures more than $3,000, totaling $622,244, from a
universe of 117 expenditures totaling $992,545. These expenditures were generally
initiated by purchase orders and were separate items from the 10 sub-contracts we
reviewed.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Additional background information is detailed in Appendix A, and our
objective, scope, methodology, and criteria are detailed in Appendix B.

Results In Brief

MTC Paul Simon did not always ensure best value was received by the government when
awarding sub-contracts and purchase orders. We questioned costs totaling $1.3 million 4
because MTC Paul Simon did not always comply with its SOPs and ensure best value to
the government. Based on our statistical sampling, we estimate that improperly awarded
sub-contracts and purchase orders may be as high as $1.8 million.

MTC Paul Simon improperly awarded 8 of 10 sub-contracts managed during our review
period. For the 8 sub-contracts, we questioned $1,101,414 because the center had not
complied with its own procurement procedures and ensured best value. Specifically,
cost or price analysis was not performed even though MTC Paul Simon’s SOPs require
those procedures, and responsibility checks (such as evaluating quality, delivery, and
technical aspects) as required. 5 Three of the sub-contracts were for physician services,
including mental health. As such, it was critical for MTC Paul Simon to ensure its

3
  We also reviewed expenditures associated with purchase orders and other documents procuring goods and services, the 

use of which is addressed in MTC Paul Simon’s SOPs. 

4
  A final determination will be made by ETA as to the amount of excess funds paid by contractor to be recovered while

recognizing the value of goods and services received. 

5
  MTC selection criteria for suppliers include quality, delivery, and technical aspects (SOP 13.01). We refer to this 

evaluation as “responsibility checks” throughout this report.


                                                                             MTC Paul Simon Sub-Contracting
3                                                                               Report No.26-12-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


students received adequate medical care by performing responsibility checks.
Responsibility checks included technical skills, experience, and past performance in the
following areas: providing services to a diverse student population, ages 16-24; and
conducting mental health assessments, supervising treatment plans, and providing
individual and group therapy and training. In addition, MTC Paul Simon did not follow its
own SOPs, which required documentation to support $214,020 in payments made for
three of the sub-contracts. These costs are already included in the $1.1 million we
questioned because the awarding of the sub-contracts did not ensure best value.

Issues were found in the award of purchase orders to vendors for 23 of the 50
expenditures more than $3,000 we statistically selected. For 16 expenditures, MTC Paul
Simon did not adequately justify and document sole-source procurements and MTC
Paul Simon management approved the expenditures without verifying the adequacy of
the sole source justifications. For 7 other expenditures, the center improperly submitted
denied grant costs for sole-source purchases. We questioned $224,198 in total costs for
the 23 expenditures. The $224,198 represented 23 percent of the $992,545 in
expenditures tested. Based on our statistical sample, we are 95 percent confident there
were between $321,509 and $496,695 in potential questioned costs.

These conditions occurred because MTC Paul Simon did not always comply with its
own SOPs and training and oversight were not adequate. The center also did not have
sufficiently detailed procedures in place. As such, MTC Paul Simon had not established
a control environment to ensure compliance and best value to the government. In
response to our draft report, ETA generally agreed with our findings, fully or partially
accepted all of our recommendations, and modified MTC Paul Simon’s CPSR to require
ETA approval before any future sub-contracting awards. However, ETA requested we
clarify the relationship between the FAR criteria cited in our report and the contractor’s
procurement SOPs. MTC disagreed with our draft report, including our use of the FAR
as criteria for sub-contracting awards made by MTC. Based on the responses of MTC
and ETA, we adjusted the report to reflect that MTC must comply with its own
procurement SOPs, which must be consistent with the FAR principles for fair and open
competition. The change in criteria and nothing MTC provided us caused us to change
our conclusions. In addition, neither ETA contracting personnel nor Job Corps regional
staff adequately monitored MTC Paul Simon procurement activities to determine if MTC
Paul Simon achieved best value through fair and open competition in its sub-contracting
(see Appendix D for ETA’s response to our draft report and Appendix E for MTC’s
response to our draft report).

We recommended the Assistant Secretary for Employment and Training recover
questioned costs as appropriate; direct MTC and MTC Paul Simon to strengthen
procedures, training, and oversight to ensure compliance with its own procurement criteria;
and direct ETA contract personnel and Job Corps regional staff to review all future MTC
Paul Simon sub-contracts and purchase orders for best value prior to award approval.




                                                               MTC Paul Simon Sub-Contracting
4                                                                 Report No.26-12-002-03-370
                                                       U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did MTC Paul Simon ensure best value when awarding sub-contracts
             and claiming cost?

       MTC Paul Simon improperly awarded sub-contracts resulting in more than $1.3
       million in questioned costs.

Finding — MTC Paul Simon did not always award sub-contracts and purchase
          orders or claim costs as required by its own procurement guidance.

MTC Paul Simon did not always ensure best value when awarding sub-contracts and
purchase orders. Based on our testing, MTC Paul Simon improperly awarded 8 of the 10
sub-contracts reviewed. For the 8 sub-contracts, we questioned $1,101,414 because MTC
Paul Simon did not comply with its own procurement procedures and ensure best value.
Specifically, cost or price analysis and responsibility checks of the sub-contractors’ ability to
satisfactorily perform the contract were not performed. In addition, MTC Paul Simon
improperly awarded purchase orders for 23 of the 50 expenditures more than $3,000 we
statistically selected. We questioned $224,198 for the 23 expenditures. In total, we
questioned $1.3 million 6 in costs claimed by MTC Paul Simon. However, based on our
statistical sampling, the total costs for improperly awarded sub-contracts and purchase
orders may be as high as $1.8 million ($1,325,712 plus $496,695).

These conditions occurred because MTC Paul Simon had not established a control
environment, including training and oversight, to ensure compliance with its own SOPs
and ensure best value to the government. Also, neither ETA contracting personnel nor
Job Corps regional staff adequately monitored MTC Paul Simon’s procurement
activities to determine if MTC Paul Simon achieved best value through fair and open
competition in its sub-contracting.

MTC Paul Simon’s SOP Requirements

When awarding sub-contracts and purchase orders, MTC Paul Simon is required by its
contract and the PRH to follow its own procurement SOPs. The MTC Paul Simon SOPs for
procuring goods or services and claiming costs include the following:

MTC Corporate Finance Policy SOP # 13.01, General Purchasing Policy

    •	B.1. Professional Ethics – Procurement shall be conducted to obtain what is
       required, when needed, at the best overall value, always considering the lowest
       practical price, economic quality and advantages of competition. Processes shall
       be consistent with MTC policies end procedures, the applicable government
       contract, government regulations, and other contracts as they apply.


6
 A final determination will be made by ETA as to the amount of excess funds paid by contractor to be recovered while
recognizing the value of goods and services received.

                                                                              MTC Paul Simon Sub-Contracting
5                                                                                Report No.26-12-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


    •	B.7. Source Selection Criteria – Supplier bids shall be evaluated upon best value.
       Completed bid documentation will be reviewed by the appropriate level of
       authority prior to commitment. Written requests for quotation shall provide
       specifications in adequate detail for the purpose of pricing, quality, delivery, and
       technical aspects, as appropriate.

    •	 B.7. a, & b. Market Research and Price Analysis – The buyer should 

       perform and document market research on an ongoing basis, and to the 

       maximum extent practicable, in order to locate suppliers or verify if a 

       supplier is the only source. The buyer should perform and document price 

       analysis on an ongoing basis, and to the maximum extent practicable. The 

       price analysis may be analysis either through lump sum or unit cost pricing 


MTC Corporate Finance Policy SOP # 13.02, Purchasing Policy – Job Corps

    •	 B.7. a. & b. Bidding Levels and File Documentation – For purchases made 

       under the Major Purchase Policy (reference 13.04), minimum bidding 

       levels and the file documentation shall be followed. 


          a.	 Competition is required for purchases greater than $3,000
          b. Where competition is required, the buyer shall seek to obtain the
              following minimum number of vendor bids:
                   Up to $3,000 – One quotation
                   Over $3,000 – Minimum of three quotations – mus t be in
                     writing.

MTC Corporate Finance Policy SOP # 13.04.3, Major Purchase Procedure – Job Corps

    •	 Procedures, 2.a. – The buyer shall ensure that the purchase is properly advertised
       and/or solicited. Possible sources may be obtained through indirect solicitations
       (newspaper advertising, the federal government point of entry, currently
       FedBizOpps, and other public notices or advertising) and direct solicitations
       (mailings and phone calls). If indirect solicitations do not provide the minimum
       number of bidders, also use direct solicitations when possible.

    •	 Procedures, 2.c. – Competitive bidding practices are used as required. A sole
       source justification memo shall be provided where competition, federal government,
       or Corporate Strategic Agreement sourcing is not possible. The memo must be
       completed prior to awarding the purchase.

    •	 Procedures, 2.k. – The buyer shall ensure for purchases greater than the Simplified
       Acquisition Threshold ($100,000), the requirements for Cost or Pricing Data are
       applied. Exemptions for Cost or Pricing Data include: price is based on adequate
       price competition; price is set by law or regulation, and commercial items/services.
       (Cost or Pricing Data requirements are outlined in the FAR clauses contained in the
       Prime Contract.

                                                               MTC Paul Simon Sub-Contracting
6                                                                 Report No.26-12-002-03-370
                                            U.S. Department of Labor – Office of Inspector General




    •	 Procedures, 3.d. and e. – If bidding is required, the buyer shall complete a Bid
       Abstract form. The form shall show the comparative pricing for all bidders. The form
       or attached memo shall indicate how the purchase was solicited, names of
       newspapers with dates advertised, Federal government point of entry (currently
       FedBizOpps), direct mailing (including name source), phone log, etc.

    •	 Procedures, 4.c. – If the purchase is greater than $3,000, the buyer shall 

       complete a standard Award Justification form. If the procurement is 

       designated a sole source, a Sole Source Justification memo is required. 

       The memo shall be written and signed by the person who designated the 

       purchase as a sole source and also signed by the center director. 


MTC Paul Simon’s SOP # 506.2(h), Purchase Orders-Preparation & Approval

    •	 C.5. Buyer complete award justification form showing the reasons for 

       awarding the order to the successful bidder. If a sole source is cited, a 

       sole source memo must accompany. Ensure all documentation is 

       complete in accordance with local SOPs. 


MTC Paul Simon’s SOP # 506.2(l), Internal Controls – Required Documentation

    •	 A. Purpose – To establish a Standard Operating Procedure which govern 

       documentation that clearly demonstrates the reasons for procurement and 

       the propriety of actions taken. 


    •	 B.1. Policy – All actions involving the procurement of property or services 

       are thoroughly documented in the following ways: 


           a.	Acquis ition justification
           c.	 Bids obtained in accordance with center procurement policy
           d. Justification for awards made to other than low bidder
           e.	 Justification of sole source procurement where competition is not
               involved
           f.	 Applicable approvals of Center Management, MTC, and DOL

MTC Paul Simon’s SOP # 506.2(o), Sub-Contracting Procedures

    •	 A. Purpose – To establish a policy and procedure for sub-contracting in 

       the performance of the prime contract. 


    •	 B. Policy – The policy is written in accordance with PRH, Chapter 5; MTC 

       Policy 500.1; and MTC Policy 310.8. 


    •	 C.4. Buyer ensure that the request for consent contains the following 

       elements when applicable to specific sub-contracts. 


                                                                MTC Paul Simon Sub-Contracting
7                                                                  Report No.26-12-002-03-370
                                           U.S. Department of Labor – Office of Inspector General




          a.	 Documentation supporting need for work to be performed.
          b. Clear description of work, including schedules.
          c.	 An accompanying cost breakdown that allows a determination of
              reasonable costs.
          d. Memorandum of negotiation.
          e.	 Evidence of competitive bids, or explanations indicating why
              competitive bides were not appropriate.

MTC Paul Simon’s SOP # 506.2(r), Internal Control – Contract Employment of Health
Professional Sub-contractors

   •	 C.2. Ensure that the recruitment of qualified health professionals is
      reasonably wide-spread using such approaches as calls to individual
      professionals, professional organizations, local hospitals/clinics; posting of
      requirement with local hospitals and clinics; and newspaper
      advertisements.

   •	 C.3. Ensure that solicitations and subsequent contracts with health 

      professionals, utilize wording similar to Department of Labor’s Standard 

      Contracts for center physicians, Dentist, and Mental Health consultants. 


Non-Compliance Resulted In More Than $1.3 million In Questioned Costs

We reviewed the 10 sub-contracts, totaling $1,905,111, managed by MTC Paul Simon
from April 1, 2010, to March 31, 2011. Additionally, we reviewed a statistical sample of
50 expenditures more than $3,000, totaling about $622,244, from a universe of 117
expenditures totaling $992,545.




                                                               MTC Paul Simon Sub-Contracting
                                            8                     Report No.26-12-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


MTC Paul Simon did not consistently comply with its own SOPs resulting in questioned
costs totaling more than $1.3 million. Table 1 summarizes the types of non-compliance,
the number of instances, and the questioned costs for each type.

Table 1: MTC Paul Simon’s non-compliance resulting in questioned costs
                                     Sub-contracts more
                                                               Expenditures more than
                                        than $25,000 /
      SOP Non-compliance                                          $3,000 / amount of
                                          amount of
                                                                   questioned costs
                                       questioned costs
   Responsibility checks were
   not executed before
                                         8 of 10 (80%)
   sub-contract award*;                                               Not applicable
                                          $1,101,414
   Price analysis not performed
   SOP # 13.01 B.7., a. & b.
   Inadequate sole-source
   justification, SOP # 13.04.3                                 Sample: 16 of 50 (32%)
                                         Not applicable
   (Par B.4); SOP # 506.2(h),                                            $82,359
   C.5
   Costs claimed for grant
                                                                 Sample: 7 of 50 (8%)
   awarded by the city of                Not applicable
                                                                        $141,939
   Chicago.
               Totals                                           Sample: 23 of 50 (48%)
                                          $1,101,414
             $1,325,712                                                 $224,198
*SOP # 13.01, Paragraph B.7 states, “Written requests for quotation shall provide
specifications in adequate detail for the purpose of pricing, quality, delivery, and
technical aspects, as applicable.” Responsibility checks include quality, delivery, and
technical aspects associated with vendor capability. In addition, responsibility checks
also include technical skills, experience, and past performance in the following areas:
providing services to a diverse student population, ages 16-24; and conducting mental
health assessments, supervising treatment plans, and providing individual and group
therapy and training.

Sub-contracts More Than $25,000 with Questioned Costs

As noted, we questioned costs for 8 of the 10 sub-contracts managed by MTC Paul
Simon. The following are examples of how MTC Paul Simon did not ensure
(1) compliance with its SOPs; or (2) best value to the government:

    •	 In 2008, MTC Paul Simon awarded a $400,848 physician services contract with a
       2-year base plus 3 option years to Rush University. Rush University had been
       MTC Paul Simon’s physician services provider under the previous center
       operator. In awarding the sub-contract, MTC Paul Simon requested bids on the
       FedBizOps website and received two bids. Paul Simon awarded the sub-contract
       to Rush University even though they were the higher bidder. MTC Paul Simon
       did not comply with MTC Headquarters’ SOP # 13.01 when awarding the


                                                              MTC Paul Simon Sub-Contracting
9                                                                Report No.26-12-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


       sub-contract to Rush University because responsibility checks and cost or price
       analyses were not performed as required. Even though the ETA Contracting
       Officer approved the award, the center did not document adequate justification
       for selecting a higher bid as required by MTC Paul Simon’s SOP # 506.2(l),
       B.1.d. As such, we questioned $234,192, which was the entire amount expended
       on the sub-contract.

   •	 In 2008, MTC Paul Simon awarded a $413,934 mental health services contract
      with a 2-year base plus 3 option years to Northwest Neuropsychology. In
      awarding the sub-contract, MTC Paul Simon requested bids on the FedBizOps
      website and received two bids. Paul Simon awarded the sub-contract to
      Northwest Neuropsychology even though they were the higher bidder.

       MTC Paul Simon did not comply with MTC Headquarters’ SOP # 13.01 when
       awarding the sub-contract to Northwest Neuropsychology because responsibility
       checks and cost or price analyses were not performed as required. Even though
       the ETA Contracting Officer approved the award, the center did not document
       adequate justification for selecting a higher bid as required by MTC Paul Simon’s
       SOP # 506.2(l), B.1.d. As such, we questioned $225,476, which was the entire
       amount expended on the sub-contract.

      In 2008, MTC Paul Simon awarded a $395,515 dental services contract with a
       2-year base plus 3 option years to Ashburn. MTC Paul Simon requested bids on
       the FedBizOps website and then awarded the sub-contract to Ashburn because
       it was the only bidder.

       MTC Paul Simon did not comply with MTC Headquarters’ SOP # 13.01 when
       awarding the sub-contract to Ashburn because responsibility checks and cost or
       price analyses were not performed as required. As such, we questioned
       $236,496, which was the entire amount of the sub-contract.

See Exhibit 1 for a list of the 8 MTC Paul Simon sub-contracts and exceptions where we
questioned costs.

Some Invoice Payments Lacked Adequate Supporting Documentation

MTC Paul Simon did not obtain required supporting documentation as required by its
own SOPs prior to payment for three of the physician sub-contracts we reviewed. For
these sub-contracts, required documentation to support billed hours was not obtained
and reviewed prior to payment. The three doctors had billed hours that were not
supported, totaling $63,918, $72,536, and $77,565. In total, $214,020 in payments
lacked adequate supporting documentation. These costs were included in the
$1.1 million we questioned because the sub-contracts were improperly awarded.




                                                              MTC Paul Simon Sub-Contracting
                                           10                    Report No.26-12-002-03-370
                                             U.S. Department of Labor – Office of Inspector General


Expenditures More Than $3,000 That Resulted In Questioned Costs

As previously noted, MTC Paul Simon did not comply with its own SOPs when awarding
purchase orders to vendors for 23 of the 50 expenditures more than $3,000 tested. For
16 expenditures, MTC Paul Simon did not adequately justify and document sole-source
procurements and MTC Paul Simon management approved the expenditures without
verifying the adequacy of the sole source justifications. For 7 other expenditures, the
center improperly submitted denied grant costs for sole-source purchases. The following
are examples of each type of non-compliance:

       •	 Inadequate sole-source justification – From our sample of 50 expenditures, MTC
          Paul Simon sole-sourced 16 purchases. In all instances, the center did not
          document justification for the sole-source purchases. As such, MTC Paul Simon
          did not provide assurance that no other responsible party existed. In addition,
          MTC Paul Simon did not perform responsibility checks prior to physician
          selection. Furthermore, MTC Paul Simon did not provide assurance that cost or
          price analysis was performed as required by its own SOPs. Consequently, we
          questioned $82,359 paid to vendors for the 16 expenditures.

       •	 Improperly submitted grant costs – MTC Paul Simon claimed $141,940 for seven
          expenditures related to a grant awarded to the center by the city of Chicago. In
          accordance with MTC Headquarters’ SOP 13.01, MTC should have conducted
          fair and open competition and awarded a purchasing instrument appropriate to
          the circumstances. Under the grant, the city of Chicago reimbursed MTC Paul
          Simon for academic training provided to Job Corps students by the Youth
          Connection Charter School (YCCS), a Chicago Public Schools System charter
          school program located at MTC Paul Simon. According to MTC, these training
          costs were covered solely by the grant and were not charged to Job Corps. We
          found that the city of Chicago denied MTC Paul Simon’s claims for the seven
          expenditures we reviewed because the center missed voucher submission cutoff
          dates, spent more than the available grant funds, and claimed building
          improvement costs to redo work for which the city had paid the previous year.
          MTC Paul Simon then improperly claimed the costs on reimbursement reports
          submitted to Job Corps.

           We questioned the $224,198 in total costs for the 23 expenditures. The $224,198
           represented 23 percent of the $992,545 in expenditures tested. Based on our
           statistical sample, we are 95 percent confident there were between $321,509 and
           $496,695 in potential questioned costs because vendor selection did not comply
           with MTC Paul Simon’s own SOPs. 7

Non-Compliance Caused By Weak Control Environment

These conditions occurred because MTC Paul Simon did not always follow its own
SOPs as cited in this report, and training and oversight were not adequate. The center
7
    The mid–point estimate was $427,160.

                                                                 MTC Paul Simon Sub-Contracting
                                              11                    Report No.26-12-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


also did not have sufficiently detailed procedures in place. MTC Paul Simon can
improve its procurement SOPs to include adequate documentation, evaluator
signatures, advertising, evaluations, and cost support. For example, specific guidance
on justifying sole source procurement should result in more effective efforts to solicit
multiple sources (such as market resource, direct solicitations) and improved
documentation of those efforts. As such, MTC Paul Simon had not established a control
environment to ensure compliance and best value to the government. In response to
our draft report, MTC disagreed with our use of specific FAR criteria when assessing
MTC Paul Simon’s procurement practices. Based on the responses of MTC and ETA,
we adjusted the report to reflect that MTC must comply with its own procurement SOPs,
which must be consistent with the FAR principles for fair and open competition. We also
believe that MTC’s response does not adequately address its inconsistent contracting
practices as defined by its own procurement guidance. The change in criteria and
nothing MTC provided us changed our conclusions.

MTC conducted a Corporate Program Assessment at MTC Paul Simon in April 2011. As
part of this assessment, MTC stated no concerns were found with MTC Paul Simon’s
compliance with SOP procurement requirements. In addition, neither ETA contracting
personnel nor Job Corps regional staff adequately monitored MTC Paul Simon’s
procurement activities to determine whether the center’s use of competition and best
value were achieved in its sub-contracting. MTC had an approved purchasing system
and MTC Paul Simon obtained consent from the ETA Contracting Officer for its health
and medical sub-contracts.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require the
Management and Training Corporation to:

     1. Strengthen MTC Paul Simon SOPs pertaining to procurement. Revisions need
        to include the required documentation and evaluator signatures and the
        specific steps to ensure sub-contracts and expenditures are advertised,
        evaluated, awarded, and costs supported.

     2. Repay questioned costs as appropriate. This includes ETA making a final
        determination as to the amount of excess funds paid by the contractor to be
        recovered while recognizing the value of goods and services received. This
        also includes a final determination pertaining to the inadequately documented
        invoice payments.

     3. Provide training as needed to ensure procurement staff is proficient on its own
        MTC Paul Simon procurement requirements.

     4. Develop procedures for providing and documenting supervisory oversight of
        MTC Paul Simon procurements.



                                                              MTC Paul Simon Sub-Contracting
                                           12                    Report No.26-12-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


Also, we recommend that the Assistant Secretary require the Regional Job Corps Office
and ETA Contracting Officers to:

     5. Strengthen procedures to ensure MTC Paul Simon complies with its own
        procurement guidance when awarding sub-contracts and purchase orders and
        claiming related cost. This should include reviewing MTC Paul Simon’s
        procurement activities during on–site center assessments.

     6. Review all future MTC Paul Simon sub-contracts for adequate procurement
        compliance prior to approval.

We appreciate the cooperation and courtesies that ETA personnel and MTC Paul
Simon officials extended to the Office of Inspector General during this audit. OIG
personnel who made major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                              MTC Paul Simon Sub-Contracting
                                           13                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 MTC Paul Simon Sub-Contracting
              14                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                 MTC Paul Simon Sub-Contracting
              15                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              16                    Report No.26-12-002-03-370
                                         U.S. Department of Labor – Office of Inspector General


                                                                                       Exhibit 1
MTC Paul Simon Sub-contracts and SOP Non-compliance

This table summarizes the SOP non-compliance for 5 of the 8 sub-contracts where we
identified non-compliance. The non-compliance issues for the other 3 sub-contracts
(Rush University, Northwest Neuropsychology, and Ashburn) are discussed on pages 9
and 10 of this report.

                                            Goods or
                             Amount of      Service
Vendor Name                  Contract       Provided         SOP Non-compliance
MedClean                     $214,446       Linen Services   • Responsibility checks not developed
                                                             and used
                                                             • Cost or Price Analysis was not
                                                               conducted or documented
Groot Industries              103,247       Waste            • Responsibility checks not developed
                                            Management       and used
                                            Services         • Cost or Price Analysis was not
                                                               conducted or documented
Tropical Optical               27,177       Optometry        • Responsibility checks not developed
                                                             and used
                                                             • Cost or Price Analysis was not
                                                                conducted or documented
Petty Exterminating            13,788       Exterminating    • Responsibility checks not developed
                                            Services         and used
                                                             • Cost or Price Analysis was not
                                                             conducted or documented
Chicago Technology             46,592       Maintenance      • Responsibility checks not developed
                                            Agreement for    and used
                                            Printers         • Cost or Price Analysis was not
                                                             conducted or documented
Total                        $405,250




                                                              MTC Paul Simon Sub-Contracting
                                          17                     Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              18                    Report No.26-12-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                    Exhibit 2
FAR Criteria on Sub-contracting Used by ETA Contracting Officers

The following FAR subparts show what ETA Contracting Officers should do when
reviewing sub-contracting by center operators.

FAR Part 44, Subcontracting Policies and Procedures

   •	 FAR Subpart 44.202-2(a) (5) – Obtain adequate price competition or properly
      justify its absence.

   •	 FAR Subpart 44.202-2(a)(7) and FAR Subpart 9.104–1 – Obtain a sound basis
      for selecting and determining the responsibility of the particular subcontractor,
      including past performance, technical requirements, and ability to comply with
      proposed performance and delivery schedules.

   •	 FAR Subpart 44.202-2(a) (8) – Perform adequate cost or price analysis or price
      comparisons and obtain certified cost or pricing data and data other than certified
      cost or pricing data.

   •	 FAR Subpart 44.202-2(a) (11) – Adequately and reasonably translate prime
      contract technical requirements into subcontract requirements.

   •	 FAR Subpart 44.201-1(b) Consent requirements – If the contractor does not have
      an approved purchasing system, consent to subcontract is required by the
      contracting officer.

FAR Subpart 52.216-7, Allowable Cost and Payment

   •	Subpart 52.216-7(a) Invoicing (sub–paragraph 1) – The Government will make
      payments to the Contractor in accordance with FAR Subpart 31.2.

FAR Subpart 31.2 Contracts with Commercial Organization

   •	 Subpart 31.201–2 (d) Determining Allowability – A contractor is responsible for
      accounting for costs appropriately and for maintaining records, including
      supporting documentation, adequate to demonstrate that costs claimed have
      been incurred, and are allocable to the contract. The contracting officer may
      disallow all or part of a claimed cost that is inadequately supported.




                                                              MTC Paul Simon Sub-Contracting
                                           19                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              20                    Report No.26-12-002-03-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                   MTC Paul Simon Sub-Contracting
                21                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              22                    Report No.26-12-002-03-370
                                             U.S. Department of Labor – Office of Inspector General


                                                                                    Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act of 1998 (WIA) and
is administered by ETA’s Office of Job Corps under the leadership of the National
Director and supported by a National Office staff and a field network of 6 Regional
Offices. The Job Corps program’s budget for FY 2010 totaled about $1.7 billion.

The purpose of Job Corps is to assist disadvantaged youth, ages 16–24, who need and
can benefit from a comprehensive program, operated primarily in the residential setting
of a Job Corps Center (JCC), to become more responsible, employable, and productive
citizens by developing employability skills. Its training activities and living facilities are
housed within 125 centers throughout the country.

MTC Paul Simon is located at Chicago, IL. On June 10, 2008, MTC was awarded
contract number DOL-J08RA-00018 to operate MTC Paul Simon effective
August 1, 2008. The contract was for operations of MTC Paul Simon for the base 2-year
period August 1, 2008, through July 31, 2010, at an estimated cost of $19 million. In
addition, MTC was awarded 3 option years, for the period August 1, 2010, through
July 31, 2013, at a total cost of approximately $30 million. MTC Paul Simon has an
authorized On-Board-Strength of 354 students.

MTC had an approved CPSR. As such, MTC Paul Simon was required to submit only its
health and medical sub-contracts to ETA for consent prior to contract award.
Additionally, MTC Paul Simon’s SOPs were approved by ETA when MTC was awarded
the contract to operate MTC Paul Simon. If MTC Paul Simon sub-contracting execution
is not consistent with its SOPs, then ETA is authorized by the FAR to withdraw MTC
CPSR approval.




                                                                 MTC Paul Simon Sub-Contracting
                                              23                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              24                    Report No.26-12-002-03-370
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Based on the responses of MTC and ETA to our draft report and subsequent
communication, we revised our criteria to evaluate MTC Paul Simon’s compliance with
its own procurement SOPs and the SOPs consistency with the FAR requirement for
ensuring best value to the government. As such, our audit objective was to answer the
following question:

 Did MTC Paul Simon ensure best value when awarding sub-contracts and claiming
 costs?

Scope

The audit covered sub-contracts managed and expenditures incurred by MTC Paul
Simon from April1, 2010, to March 31, 2011. We reviewed the 10 sub-contracts, totaling
$1,905,111, managed by MTC Paul Simon during this period. Furthermore, we
reviewed invoices paid and associated with the 10 sub–contracts. In addition, we
reviewed a statistical sample of 50 expenditures more than $3,000, totaling $622,244,
from a universe of 117 expenditures totaling $992,545. These expenditures were
generally initiated by purchase orders and were separate items from the 10
sub-contracts we reviewed. The MTC contract to operate MTC Paul Simon was not
included in our review because it was awarded by ETA. In addition, no MTC Paul Simon
sub-contracts were awarded by ETA.

We performed field work at the MTC Paul Simon JCC located in Chicago, IL, where we
reviewed files, supporting documents, and performed interviews. In addition, we
interviewed the ETA contracting officer located in Chicago, IL.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

Methodology

To accomplish the audit objective, we obtained an understanding of the FAR, and Job
Corps’ and MTC Paul Simon’s procurement regulations and policies. We conducted


                                                             MTC Paul Simon Sub-Contracting
                                          25                    Report No.26-12-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


interviews with MTC Paul Simon officials responsible for procurement and invoice
payment.

To assess MTC Paul Simon’s internal controls over procurement, we interviewed key
center staff; reviewed applicable Job Corps requirements, including the Job Corps PRH,
applicable sections of the FAR, contract provisions, and MTC Paul Simon’s SOP;
analyzed the most recent Job Corps Regional Office Center Assessment and MTC’s
most recent corporate center assessment; and performed a walkthrough of the
procurement process. We identified and evaluated the internal controls that MTC Paul
Simon, MTC, and Job Corps had in place over the monitoring and approval of
sub-contracts as of August 2011.

Specifically, we obtained all supporting documents pertaining to the announcing,
performing responsibility checks, awarding the contracting instrument, and payment of
invoices of the 10 sub-contracts and 50 expenditures. We tested the completeness of
the 10 sub-contract files by conducting a meeting with MTC Paul Simon’s contracting
officer/purchasing agent and reviewing the contract files. We tested the completeness of
the check register by verifying check dates that were issued during our audit period, by
verifying that all checks were in sequential order, and by verifying that missing checks
had been voided by MTC Paul Simon.

The universe used in our audit consisted of the 10 sub-contracts and the 117
expenditures more than $3,000. We tested the 10 sub-contracts. For the expenditures,
we stratified the universe into 7 strata. Each of the 7 strata was based on the dollar
amount of the expenditures. The schedule below provides details on the range of
expenditures, total number of expenditures, and selected expenditures within each
strata.

                                                 Number of
                                                                    Number of Checks
 Strata         Range of Checks                 Checks in the
                                                                    Selected For Audit
                                                   Strata
    1                 $40,000 – $52,000               4                          4
    2                 $20,000 – $39,999               5                          5
    3                 $10,000 – $19,999              13                          9
    4                   $7,000 – $9,999              13                          4
    5                   $5,000 – $6,999              23                          8
    6                   $4,000 – $4,999              20                          7
    7                   $3,000 – $3,999              39                         13
 Totals                                              117                        50




                                                              MTC Paul Simon Sub-Contracting
                                           26                    Report No.26-12-002-03-370
                                                     U.S. Department of Labor – Office of Inspector General


For sub-contracts issued by MTC Paul Simon, we obtained the contract files and all
supporting documentation provided by MTC Paul Simon. We reviewed the 10
sub-contracts, totaling $1,905,111, managed by MTC Paul Simon during April 1, 2010,
to March 31, 2011.

We tested each of the sub-contracts and expenditures 8 for compliance, including
awarding sub-contracts based on fair and open competition or justification of its
absence, cost or price analysis, technical requirements, ability to comply with proposed
performance and delivery schedules, and responsibility checks of past performance. We
reviewed 100 percent of the invoices for the 3 medical sub-contracts and more than 50
percent of the invoices for the other 7 sub-contracts to determine whether payments
were supported as required.

For purchase orders issued by MTC Paul Simon, we obtained the check register for the
audit period. From the check register we excluded checks related to payroll, checks less
than $3,000, payments related to the ten sub-contracts reviewed, and payments for
utilities. This left a universe of 117 expenditures. We then used statistical sampling to
select a sample of 50 expenditures.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing MTC Paul Simon’s policies and procedures
related to procurement. We confirmed our understanding of these controls and
procedures through interviews and documentation review and analysis. We evaluated
internal controls used by MTC Paul Simon for reasonable assurance that the awarding
of sub-contracts and payment of invoices were done according to federal and Job Corps
requirements. Our consideration of MTC Paul Simon’s internal controls for awarding of
sub-contracts and payment of invoices would not necessarily disclose all matters that
might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

To achieve the assignment’s objective, we relied on the computer-processed data
contained in MTC Paul Simon’s check register. We assessed the reliability of the data
by (1) performing various tests of required data elements, and (2) interviewing MTC
Paul Simon financial officials knowledgeable of the data. Based on these tests and
assessments, we concluded the data was sufficiently reliable to use in meeting the audit
objective.




8
 We also reviewed expenditures associated with purchase orders and other documents procuring goods and services, the
use of which is addressed in MTC Paul Simon’s SOPs.

                                                                            MTC Paul Simon Sub-Contracting
                                                      27                       Report No.26-12-002-03-370
                                                         U.S. Department of Labor – Office of Inspector General


Criteria

We used the following criteria to perform this audit:

    •    Federal Acquisition Regulations,
    •    Job Corps Policy and Requirements Handbook,
    •    MTC Corporate Standard Operating Procedures, and
    •    MTC Paul Simon Standard Operating Procedures.

Specifically, FAR Subpart 44.302 requires ETA to determine the need for a Contractor’s
Purchasing System Review (CPSR) based on, but not limited to, the past performance of
the contractor and dollar value of sub-contracts (generally $25 million). FAR Subpart
44.301 states the objective of a CPSR is to evaluate the efficiency and effectiveness with
which the contractor spends government funds and complies with government policy when
sub-contracting. The review provides the Contracting Officer with a basis for granting,
withholding, or withdrawing approval of the contractor’s purchasing system. 9 Furthermore,
FAR Subpart 44.303 states, “The 13 considerations listed in FAR Subpart 44.202-2 for
consent evaluation of particular sub-contracts also shall be used to evaluate the
contractor’s purchasing system, including the contractor’s policies, procedures, and
performance under that system. Special attention shall be given to:

         (a) The results of market research accomplished;
         (b) The degree of price competition obtained;
         (c) Pricing policies and techniques, including methods of obtaining certified cost or
             pricing data…;
         (d) Methods of evaluating sub-contractor responsibility, including the contractor’s
             use of the Excluded Parties List System…;
         (g) Planning, award, and post-award management of major sub-contract
             programs…; and
         (j) Appropriateness of types of contracts used.”

In addition, DOL policy for conducting CPSRs (Section 4.9) states that it is in the
government’s interest to perform CPSRs when a contractor’s total combined business
with Job Corps exceeds $25 million. The policy further clarifies the center operators’
responsibility to establish procurement policies and procedures that are consistent with
the FAR. The DOL policy states that under the terms of center operator contracts,
Contracting Officers are responsible for ensuring that contractors procure goods and
services on behalf of the Job Corps program in conformance with the contract
provisions and principles detailed in the FAR. Contracting officers can either review and
consent to all sub-contracts for the contract, or may approve the contractor’s purchasing
system. The policy also states that the FAR allows for approval of purchasing systems
that demonstrate compliance with FAR principles after a rigorous review of all
purchasing manuals and procedures. Additionally, MTC’s corporate Standard Operating


 ETA reviews each center operator’s procurement systems every three years. If the procurement system is
9

“approved,” ETA contracting officials reduce their oversight of the center operator’s procurement activities.

                                                                                 MTC Paul Simon Sub-Contracting
                                                          28                        Report No.26-12-002-03-370
                                                       U.S. Department of Labor – Office of Inspector General


Procedures (SOP) require that its center processes be consistent with government
regulations. 10




10
     MTC SOP #13.01, General Purchasing Policy, dated January 1, 2011, Paragraph B.1.

                                                                             MTC Paul Simon Sub-Contracting
                                                        29                      Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              30                    Report No.26-12-002-03-370
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms


DOL              U.S. Department of Labor

ETA              Employment and Training Administration

FAR              Federal Acquisition Register

OIG              Office of Inspector General

MTC              Management Training Corporation

MTC Paul Simon   Paul Simon Job Corps Center as Operated by MTC

PRH              Policy and Requirements Handbook

SOP Standard              Operating Procedures

WIA              Workforce Investment Act

YCCS             Youth Connection Chartered School




                                                          MTC Paul Simon Sub-Contracting
                                       31                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              32                    Report No.26-12-002-03-370
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix D
ETA Response to Draft Report




                                                   MTC Paul Simon Sub-Contracting
                                33                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 34                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 35                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 36                    Report No.26-12-002-03-370
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix E
MTC Response to Draft Report




                                                   MTC Paul Simon Sub-Contracting
                                37                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 38                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 39                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 40                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 41                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 42                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 43                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 44                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 45                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 46                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 47                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 48                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 49                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 50                    Report No.26-12-002-03-370
U.S. Department of Labor – Office of Inspector General




                    MTC Paul Simon Sub-Contracting
 51                    Report No.26-12-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 MTC Paul Simon Sub-Contracting
              52                    Report No.26-12-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Michael Elliott (Audit
Manager), Dr. James Turkvant (Lead Auditor), Miguel Hughes and Lorenzo Thornton
(Auditors), and Steve Witherspoon (Reviewer).




                                                               MTC Paul Simon Sub-Contracting
                                            53                    Report No.26-12-002-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/   hotlineform.htm
Email: hotline@ oig.dol.gov

Telephone:       1-800-347-3756
                 202-693-6999

Fax:             202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
Room            S-5506
         Washington, D.C. 20210
